           United States Department of the Interior
                             Office of Inspector General
                                  Washington, D.C. 20240




                                                                      December 30, 2003


Memorandum

To:        Director, Office of Surface Mining Reclamation and Enforcement

From:      Roger La Rouche
           Assistant Inspector General for Audits

Subject: Management Issues Identified During the Audit of the Office of Surface
         Mining Reclamation and Enforcement’s Fiscal Year 2003 Financial
         Statements (Report No. C-IN-OSM-0024-2004)

        We contracted with KPMG LLP (KPMG), an independent certified public
accounting firm, to audit the Office of Surface Mining Reclamation and Enforcement’s
(OSM) financial statements as of September 30, 2003 and for the year then ended. In
conjunction with its audit, KPMG noted certain matters involving internal control and
other operational matters that should be brought to management’s attention. These
matters, which are discussed in the attached letter, are in addition to those reported in
KPMG’s audit report on OSM’s financial statements (Report No. C-IN-OSM-0079-2003)
and do not constitute reportable conditions as defined by the American Institute of
Certified Public Accountants.

       The recommendations will be referred to the Assistant Secretary for Policy,
Management and Budget for tracking of implementation. If you have any questions
regarding KPMG’s letter, please contact me at (202) 208-5512.

        The legislation, as amended, creating the Office of Inspector General, (5 U.S.C.A.
App. 3) requires semiannual reporting to Congress on all audit reports issued, actions
taken to implement audit recommendations, and recommendations that have not been
implemented. Therefore, this report will be included in our next semiannual report.

Attachment



cc:     Assistant Secretary for Land and Minerals Management
        Chief Financial Officer, Office of Surface Mining Reclamation and Enforcement
        Director, Office of Financial Management
        Audit Liaison Officer, Land and Minerals Management
        Audit Liaison Officer, Office of Surface Mining Reclamation and Enforcement
        Focus Leader for Management Control and Audit Followup,
        Office of Financial Management
      Suite 2700
      707 Seventeenth Street
      Denver, CO 80202




October 31, 2003


The Director of the Office of Surface Mining Reclamation and Enforcement
and the Inspector General of the U.S. Department of the Interior:

We have audited the financial statements of the Office of Surface Mining Reclamation and Enforcement
(OSM) as of and for the year ended September 30, 2003, and have issued our report thereon, dated
October 31, 2003. In planning and performing our audit of the financial statements, we considered internal
control in order to determine our auditing procedures for the purpose of expressing our opinion on the
financial statements. An audit does not include examining the effectiveness of internal control and does not
provide assurance on internal control. The maintenance of adequate internal control designed to fulfill
control objectives is the responsibility of management. Because of inherent limitations in internal control,
errors or fraud may nevertheless occur and not be detected. Also, controls found to be functioning at a
point in time may later be found deficient because of the performance of those responsible for applying
them, and there can be no assurance that controls currently in existence will prove to be adequate in the
future as changes take place in the organization. We have not considered internal control since the date of
our report.

During our audit, we noted certain matters involving internal control and its operation that we consider to
be reportable conditions under standards established by the American Institute of Certified Public
Accountants. Reportable conditions are matters coming to our attention relating to significant deficiencies
in the design or operation of the internal control over financial reporting that, in our judgment, could
adversely affect the OSM’s ability to record, process, summarize, and report financial data consistent with
the assertions by management in the financial statements. Our consideration of internal control would not
necessarily disclose all matters in internal control that might be reportable conditions. These matters have
been reported to management in our report on the financial statements of the OSM as of and for the year
ended September 30, 2003, dated October 31, 2003. In that report, we identified the following matters as
reportable conditions:

•     Security and Internal Control Over Information Technology Systems
•     Internal Control Over Charge Cards

During our audit, we also noted certain other matters involving internal control and other operational
matters that are not considered to be reportable conditions. We would like to bring these matters to your
attention. These comments and recommendations, all of which have been discussed with the appropriate
members of management, are intended to improve internal control or result in other operating efficiencies
and are summarized below.

In addition to our 2003 comments and recommendations, we have reported the status of prior year
management letter comments. Their current status is addressed in the Progress on Prior Year Management
Letter Recommendations section of this letter.




                   KPMG, LLP. KPMG, LLP a U.S. limited liability partnership, is
                   a member of KPMG International, a Swiss association.=
The Director of the Office of Surface Mining Reclamation and Enforcement
and the Inspector General of the U.S. Department of the Interior
October 31, 2003
Page 2


Timely Submission of Cost Reports
The Code of Federal Regulations (the Code) requires grantees of federal funds to submit financial status
reports. The Code allows the federal agency to prescribe the frequency of the reporting. The OSM, as
outlined in its Federal Assistance Manual (FAM), requires its regulatory program and abandoned mined
land program grantees to submit financial status reports semiannually and annually, respectively. These
reports are due 30 days and 90 days, respectively, after the end of a reporting period.

The FAM states that if a report is not submitted by the due date, the OSM field office shall call the grantee
to provide notification of the delinquency, request the report, and establish a revised due date. The
conversation shall be confirmed in a letter to the recipient. The letter should also request the recipient to
provide an explanation if the report will not be submitted by the revised due date. If neither the report nor
an acceptable explanation is submitted by the revised due date, a second letter shall be sent by the field
office to the grantee stating that failure to submit the report within 30 days of the date of the letter may
result in suspension or termination of the grant agreement, withholding of any additional awards for the
project, and possibly additional and even more severe action.

Our audit found that the OSM did not always receive financial status reports in a timely manner. We noted
seven instances in a sample of 32 items in which the grantee did not obtain filing extensions and submitted
the reports past the applicable due date. For these seven instances, written correspondence was not sent to
the grantees notifying them of the delinquency. The financial status reports are necessary for the OSM to
monitor grantee financial performance and to record grant expenses and the deobligation of funds in the
OSM’s financial accounting records.

Recommendation
The OSM should implement its grantee reporting policies, as contained in its Federal Assistance Manual,
to help ensure financial status reports are obtained in a timely manner and that follow-up on delinquencies
is adequately documented.

Grant Monitoring
Monitoring of Single Audit Reports

Federal law, i.e., the Single Audit Act, requires nonfederal grantees to have an annual audit completed. The
audit is to cover the grantee’s financial statements and compliance with major federal program
requirements. In addition, the Single Audit Act requires the federal agency which provided the funds to a
grantee, to review the audit of the grantee as necessary to determine whether prompt and appropriate
corrective action has been taken with respect to any audit findings.

Per the OSM’s Federal Assistance Manual (FAM), it is OSM’s policy to resolve all Single Audit findings
in a timely and proper manner. The FAM describes the process as follows: The Department of the Interior
Office of Inspector General (DOI OIG) receives a copy of an audit report from the cognizant federal
agency for that state or tribe. (Note – the cognizant federal agency receives the report from the federal
government’s Federal Audit Clearinghouse, which receives the report from the grantee.) The DOI OIG
logs in the report, and reviews and accepts the audit. It forwards a copy to OSM’s Office of Strategic
Planning and Budget. The Office of Strategic Planning and Budget reviews the report and forwards it to the
appropriate OSM regional director for review. The regional director forwards the audit report to the OSM
The Director of the Office of Surface Mining Reclamation and Enforcement
and the Inspector General of the U.S. Department of the Interior
October 31, 2003
Page 3


field office grant specialist who is responsible for following-up on audit findings. Per the FAM, all audit
findings shall be resolved within 60 days of receipt by the OSM field office grant specialist.

Our audit found that OSM field offices do not always receive Single Audit reports in a timely manner. We
obtained a listing of 27 states and tribes receiving grants from the OSM. For each entity, we reviewed the
most recent Single Audit report submitted to the Federal Audit Clearinghouse. Five of the reports
contained findings related to OSM grants. For these five grantees, we noted the following time lag between
the date the Federal Audit Clearinghouse received the audit report and the date OSM’s field office was
notified of the finding.

                                                                      OSM Field
                                                                         Office
                            Fiscal             Received by           Notification of          Lag Time
    State/Tribe            Year-End           Clearinghouse            Findings              (in months)
 Illinois               June 30, 2001         July 2002             November 2002          Four
 Montana                June 30, 2001         April 2002            September 2002         Five
 New Mexico             June 30, 2002         April 2003            June 2003              Two
 Pennsylvania           June 30, 2002         June 2003             Not yet received       Four +
 West Virginia          June 30, 2002         April 2003            June 2003              Two


Single Audit reports may identify instances where federal funding is not being used in a manner consistent
with the intent of grant regulations. Under the current elongated process, the implementation of corrective
action may be delayed and result in further noncompliance or misuse of federal funds.

Site Visits

In addition to obtaining Single Audit reports, the OSM performs on-site monitoring of grantee programs.
As part of our audit, we discussed grantee-monitoring procedures with five grant financial specialists
responsible for larger grantees. Specific to the discussions were site visit frequency and procedures
performed. Based on these discussions, we found varying levels of reviews being conducted, and that the
reviews did not follow a standardized process. By not having standardized site visit procedures, the level
and effectiveness of monitoring activities vary between grant specialists.

Monitoring of Single Audit Reports – Recommendation
OSM grant specialists should frequently review the Federal Audit Clearinghouse website to determine if
grantee audit reports contain findings related to OSM grants. If findings are present, grant specialists
should obtain audit reports directly from grantees, given reports are public information, and begin working
with grantees on a resolution. Unlike the current elongated process, this will allow prompt corrective action
to be implemented for any findings noted in the audit reports and may limit further grantee noncompliance
or the misuse of federal funds.

Site Visits – Recommendation
The OSM should develop a standardized site visit review program or checklist to ensure on-site monitoring
of grantee programs is consistent among grantees.
The Director of the Office of Surface Mining Reclamation and Enforcement
and the Inspector General of the U.S. Department of the Interior
October 31, 2003
Page 4


Progress on Prior Year Management Letter Recommendations
The following is a summary of the implementation status of prior year management letter comments.

                    Comment                                                    Status
Network Security – The OSM should improve               Corrected.
network security from both an external and
internal perspective.
Application Logical Access – The OSM should             Partially Corrected. As discussed in our report
improve certain aspects of logical access for           dated October 31, 2003, our 2003 audit found that
financial applications owned or used by the             OSM has not (1) finalized security policies for one
OSM.                                                    of its financial support applications, (2) performed
                                                        employee background investigations consistently
                                                        and/or timely, and (3) implemented certain
                                                        procedural and technical access controls over
                                                        certain financial applications.
System Software – The OSM should develop                Corrected.
formal policies over its operating system
software.


                                                *******

Our audit procedures are designed primarily to enable us to form an opinion on the financial statements,
and therefore may not bring to light all weaknesses in policies or procedures that may exist. We aim,
however, to use our knowledge of the OSM’s organization gained during our work to make comments and
suggestions that we hope will be useful to you.

We would be pleased to discuss with you in more detail any of the matters referred to in this letter.

This letter is intended for the information and use of the OSM management, the Department of the
Interior’s management, the Department of the Interior’s Office of Inspector General, Office of
Management and Budget, General Accounting Office, and the U.S. Congress, and is not intended to be
used by anyone other than these specified parties.

Very truly yours,
